Inspection Report I-96-03
DEPARTMENT OF JUSTICE
OFFICE OF THE INSPECTOR GENERAL
INSPECTION REPORT
IMMIGRATION AND NATURALIZATION SERVICE
DEPORTATION OF ALIENS AFTER
FINAL ORDERS HAVE BEEN ISSUED
March 1996
Report Number I-96-03
TABLE OF CONTENTS
EXECUTIVE DIGEST
INTRODUCTION
BACKGROUND
Legislative Basis for
Detention and Deportation
Program Responsibilities
Proceedings and Final
Orders
Exclusion,
Deportation, and Voluntary Departure
Exclusion
Deportation
Voluntary Departure
Aliens Apprehended and Expelled
RESULTS OF THE INSPECTION
REMOVAL OF DETAINED ALIENS
Travel Documents
Lack of Detention and
Transportation Resources
REMOVAL OF NONDETAINED ALIENS
Delays in Receipt of
Final Orders and in D&D Initial Actions
Routing of Final
Orders
D&D Initial Actions
Failure to Send Surrender
Requests
Failure of Nondetained
Aliens to Surrender
Failure to Pursue
Abscondees
Failure to Investigate
Abscondees
Closing Abscondee Cases
Special Conditions
Affecting Certain Nationalities
CONCLUSIONS
RECOMMENDATIONS
APPENDIX I - Abbreviations
APPENDIX II - Management's Response to Draft Report - Not
included in this hypertext version.
APPENDIX III - Office of the Inspector General's Analysis of
Management's - Not included in this hypertext version.
EXECUTIVE DIGEST
Current estimates of the population of illegal immigrants
living in this country are around 4 million. These estimates do
not include a more transient population of aliens who enter
illegally for brief periods. The majority of the aliens the
Immigration and Naturalization Service (INS) removes from the
country are part of the transient population and are not included
in the estimated 4 million illegal residents.
INS reported that in Fiscal Year (FY) 1994 it removed more
than 1 million aliens who were in this country illegally. The
great majority of these were Mexican nationals apprehended near
the southern border who left the country voluntarily. These
aliens are not part of the Detention and Deportation (D&D)
program's workload and they are not considered to have been
deported.
D&D's workload focuses on those illegal aliens who
initially refuse to depart voluntarily. D&D reported that, at
the end of FY 1994, 464,437 aliens were in some phase of the
process for determining whether they should be allowed to remain
in the United States, or they were in the process of being
removed from the country.
Final orders for deportation are issued by the Executive
Office for Immigration Review (EOIR). In FY 1994, EOIR issued
99,779 final orders and INS deported 47,434 aliens. Our
inspection examined the actions taken by INS to remove aliens
after EOIR had issued final deportation orders. Our May 1994
report titled Case Hearing Process in the EOIR, number
I-93-03, examined the process leading to the issuance of final
orders.
During the current inspection, we reviewed case files for a
total of 1,058 aliens who were issued final orders at 14
locations to determine what actions INS had taken, including
whether the alien had left the country as ordered.
We found INS removed almost 94 percent of the detained aliens
in our sample. The aliens were deported in an average of 16 days
after final orders were issued, even though problems in acquiring
travel documents and limited escort and transportation resources
caused delays in some cases. Detained aliens who were not
deported included those of nationalities that could not be
removed for political or humanitarian reasons, aliens for whom
INS was unable to obtain travel documents, and aliens who had
been granted administrative relief.
In contrast, only about 11 percent of the nondetained aliens
in our sample left the country. Removing nondetained aliens
depends largely on the voluntary surrender of the aliens when
they are requested to do so. In the sample cases, D&D
requested only 56 percent of the aliens to surrender. Reasons for
failing to request surrender included the lack of a good address,
political or humanitarian concerns raised by the alien's
nationality, and the cost of removing the aliens. When surrender
notices were sent, only a few aliens surrendered. When
aliens failed to surrender, D&D often did not have the
resources to pursue them. When D&D reported the aliens who
failed to surrender to INS Investigations, Investigations did not
pursue them either, because these cases did not meet
investigative priorities.
Delays by district counsel in transmitting final orders to
D&D and delays by D&D in taking action may have
contributed to the low percentage of nondetained aliens who were
deported. Special conditions affecting certain nationalities also
impaired INS' ability to remove aliens.
D&D managers in several locations expressed frustration
over their inability to remove aliens in accordance with
immigration laws. They attributed this inability in part to
limits on personnel, funding, detention space, and related
resources, and in part to the effects of political conditions.
Managers confirmed that in deciding which aliens to detain, they
tended to choose those who could be deported with expenditure of
the fewest resources.
Although resources are a real constraint, detention is key to
deportation. INS clearly could improve the effectiveness of the
deportation program if more aliens could be detained. Resources
permitting, INS should take more aggressive actions to remove
nondetained aliens, such as taking aliens into custody at
hearings when a final order is issued at the hearing; delivering
surrender notices personally instead of mailing them to aliens;
moving more quickly to present surrender notices; and pursuing
aliens who fail to surrender.
INTRODUCTION
We have completed an assessment of whether Immigration and
Naturalization Service (INS) removes deportable aliens promptly
from the United States after the issuance of final deportation
orders.
Our focus was on INS processes and actions. We conducted field
work at INS Headquarters, nine district offices and six detention
centers. Because immigration judges or the Board of Immigration
Appeals in the Executive Office for Immigration Review (EOIR)
issue the final orders, we also interviewed officials at EOIR.
We reviewed applicable laws, regulations, policy, and written
procedures relating to the removal of aliens from the United
States. We interviewed appropriate personnel at all locations
visited and also examined various kinds of relevant documents at
each location.
We selected field locations that included three of the largest
INS districts; large and small districts with detention
facilities; smaller districts without an INS or contract
detention facility; and a Bureau of Prisons facility for criminal
aliens. These locations included district offices in Baltimore,
MD; Denver, CO; Los Angeles, CA; Miami, FL; New Orleans, LA; New
York, NY; San Francisco, CA; Seattle, WA; and Washington, DC; and
detention centers in Denver; Krome, FL; Oakdale, LA; Seattle;
Terminal Island, CA; and Varick Street, NY.
At each location visited, we reviewed a random sample of case
files relating to aliens who had been issued final orders by
EOIR. We reviewed a total of 1,058 case files. The files were
selected from EOIR's data base by means of a computerized random
number generator.
Cases involving nondetained aliens were randomly selected from
final orders issued in the period April 1993 through September
1993, and cases involving detained aliens were from the period
January 1994 through July 1994.
BACKGROUND
Legislative Basis
for Detention and Deportation
The Immigration and Nationality Act (Act) provides statutory
authority for determining whether aliens may enter or remain in
the United States, and for removing aliens who violate
immigration law. INS has the authority to detain any alien who
does not clearly appear to be admissible on arrival, and to
arrest and detain any individual suspected of being in the United
States illegally.
Program Responsibilities
Within INS, the Detention and Deportation (D&D) program's
responsibilities are the detention, exclusion, removal, parole,
and deportation of aliens. D&D's goal is to ensure that
deportable or excludable alien cases are processed expeditiously,
and that the aliens are removed from the country promptly.
Proceedings and Final
Orders
The Act establishes proceedings, conducted by immigration
judges, to determine whether an alien should be allowed to enter
or be deported. During the proceedings, aliens may be held in
custody, released on bond, or released on parole.
The Act gives certain rights of appeal from an adverse
decision by an immigration judge. The alien is allowed to file an
appeal with the Board of Immigration Appeals (BIA). If they
receive an adverse decision from the BIA, aliens may petition
Federal district or appellate courts for judicial review of final
deportation orders.
An order of deportation becomes final and the alien subject to
removal by INS when:
· an immigration judge enters an order of deportation
without granting voluntary departure or other relief, and the
alien waives the right to appeal; or
· the BIA enters an order of deportation on appeal,
without granting voluntary departure or other relief.
If an alien petitions a Federal court for review, the order
becomes final if and when the court affirms the order of
deportation. As used in this report, final orders are those
issued by immigration judges, BIA, and Federal courts that were
not appealed to a higher level. If voluntary departure was
granted as part of the order, we considered the order to be final
when the time for voluntary departure expired. In some of the
cases we reviewed, decisions from Federal courts were pending.
Exclusion, Deportation,
and Voluntary Departure
In processing aliens who are in this country illegally, the
Act distinguishes between those who require formal proceedings
resulting in final orders before removal and those who depart
voluntarily.
Exclusion - The Act provides
for inspection of aliens at ports of entry, and requires aliens
who do not appear clearly entitled to enter to be detained for
further inquiry. If, upon further inquiry, the alien is not
permitted to enter the country, the alien is excluded.
Funds used to pay for the cost of care and transportation of
excluded aliens are derived from user fees that are collected
from transportation companies and passed on to international
travelers as an addition to the cost of their tickets.
Deportation - Aliens may be
deportable in three circumstances: (1) if they enter the United
States illegally; (2) they enter legally but violate a condition
of entry; or (3) they are convicted of certain crimes. Unless
stated otherwise, as used in this report the term
"deportation" includes both deportations and
exclusions.
Voluntary Departure
- Aliens who admit deportability may be permitted to depart
voluntarily or they may voluntarily accept removal by the
government under safeguards. These aliens may not require
deportation proceedings and they are not considered to have been
deported.
Aliens Apprehended and
Expelled
The total number of aliens in the United States illegally is
unknown. INS and the Urban Institute, a nonprofit policy research
organization, estimate that the population of illegal immigrants
living in the country is approximately 4 million. These estimates
do not include a more transient population of aliens who enter
illegally for brief periods. The majority of the aliens INS
removes from the country are part of the transient population and
are not included in the estimated 4 million illegal residents.
INS reported that, in Fiscal Year (FY) 1994, it apprehended
1,094,643 aliens, and expelled 1,077,896 aliens. Of the aliens
INS expelled, 1,031,668 were apprehended by the Border Patrol.
The great majority consisted of Mexican nationals apprehended
near the southern border. Border Patrol agents processed these
aliens for removal, and most of them left the country under
voluntary conditions without EOIR proceedings. These aliens are
not part of D&D's deportation workload.
In FY 1994, according to INS reports, 1,030,462 illegal aliens
departed voluntarily, 40,905 were deported, and 6,529 were
excluded from the country.
D&D's workload focuses on those illegal aliens who
initially refuse or are unable to depart voluntarily. D&D
reported 464,437 aliens under "docket control" at the
end of FY 1994. "Docket control" means that these
aliens were in some phase of the process for determining whether
they should be allowed to remain in the United States, a process
generally including EOIR proceedings, or they had been found
deportable and their departure was pending.
In FY 1994, EOIR issued 99,779 final orders and INS deported
47,434 aliens. About 45 percent of the final orders were issued
to detained aliens. Of the 54,779 final orders for nondetained
aliens, 47 percent were issued in absentia when the aliens failed
to appear at hearings.
Our May 1994 report titled Case Hearing Process in the EOIR,
number I-93-03, examined the process leading to the issuance of
final orders. This current review was limited to actions taken by
INS to remove aliens after EOIR had issued final orders.
RESULTS OF
THE INSPECTION
REMOVAL OF DETAINED ALIENS
INS removed most detained aliens promptly after final
orders were issued. In our sample, we found that INS
successfully deported almost 94 percent of the detained
aliens, with an average deportation time of 16 days. Problems
with acquisition of travel documents and limited resources to
escort and transport detained aliens sometimes affected their
deportation.
We reviewed 402 detained alien case files. INS deported 376,
or almost 94 percent of the aliens. The 26 aliens not deported
included 13 of nationalities that could not be deported for
political or humanitarian reasons, 4 for whom INS was unable to
obtain travel documents, 2 pending travel arrangements, 2 who had
been granted administrative relief, 2 who had been released on
bond and then absconded, 1 with a Federal appeal pending, 1
pending prosecution for illegal entry after a previous
deportation, and 1 who had been indicted for murder and turned
over to the local police department.
INS detains aliens according to priorities, funding sources,
and facility and resource limitations. As required by law, aliens
convicted of aggravated felonies are the first priority, followed
by other aliens convicted of criminal behavior, with
administrative deportation cases given the lowest priority.
District officials confirmed that aliens who could be deported
easily were more likely to be detained, to make the most
effective use of INS detention space. The availability of User
Fee funds to cover detention costs also affects which aliens INS
can detain. User Fees may allow INS offices to detain aliens in
exclusion proceedings, when funds are unavailable for other
deportation cases.
Since INS controls the alien in detention, removal procedures
primarily involve making appropriate travel arrangements. These
procedures include obtaining travel documents, making specific
transportation arrangements, and escorting the aliens to the
transportation carrier. Our review of processing time from
issuance of final order to the date the alien left the country
showed an average removal time of 16 days.
The following shows the average removal time at each of the
six detention centers:
At Varick Street, problems in obtaining travel documents for
the aliens caused the relatively long time before removal. At
Oakdale, problems both with travel documents and transportation
resources caused delays. The short average time before removal at
Terminal Island was due to a high percentage of Mexicans, who do
not need travel documents to return to Mexico.
Travel Documents
Generally, INS cannot deport aliens to countries that have no
diplomatic relations with the United States. For example, D&D
has been unable to deport Vietnamese nationals because there has
been no means of obtaining travel documents for them.
In addition, D&D personnel at all locations cited
difficulties or delays in obtaining travel documents for
nationals of some other countries, including Jamaica, the
People's Republic of China (PRC), Nigeria, and India. District
managers commented that most of the Jamaicans who are deported
are criminal aliens, and Jamaican authorities are reluctant to
take them back. D&D officers said obtaining documents for
nationals of India and the PRC took a long time because
authorities in those countries require a check of records in
local provinces before issuing travel documents.
On the day of our visit to the Varick Street facility, we
found that:
· One Jamaican had been waiting 55 days and another 40
days for travel documents. According to the D&D staff,
the Jamaican consul regularly waited for a group of five
Jamaicans with final orders before issuing travel documents.
· One PRC national had been detained for 201 days after
receiving a final order.
Two Headquarters D&D officers have been assigned to help
districts obtain travel documents in problem cases. The officers
attempt to build goodwill through contacts with embassy officials
and Department of State desk officers, who may be able to assist
INS in obtaining documents. For the period from March 1994
through March 1995, 174 cases were referred to Headquarters for
assistance. As of May 10, 1995, a travel document was issued and
the alien was deported in 91 (52 percent) of the cases. Jamaican
nationals were the largest group for whom assistance was
requested, with documents issued in 26 of 33 referrals. On the
other hand, INS was unable to acquire documents in any of the 13
Vietnamese cases referred.
Lack of Detention
and Transportation Resources
Districts reported periods when they were unable to deport due
to lack of detention and transportation funds. In one district,
D&D was able to locate nondetained aliens but not deport
them, because removal regularly required 3 detention days and the
cost of the ticket.
In some locations limits on the number of staff and lack of
transportation needed to deliver detained aliens to airports or
escort them on foreign flights delayed their removal. This was
especially evident at the Bureau of Prisons' facility in Oakdale.
Alien criminals in the Bureau of Prisons' system are sent to the
Oakdale facility from all over the country. District D&Ds
throughout the country also transfer criminal aliens to Oakdale.
Upon issuance of a final order, Oakdale D&D employees deport
the aliens.
Oakdale is located in a remote area of Louisiana. The closest
international airports are in Houston and New Orleans. Both
involve a drive of over 3 hours. Further limitations are imposed
by commercial airlines' restrictions on the number of seats
available for deporting aliens on certain flights. The INS Air
Operations, located in nearby Pineville, has service aircraft to
transport aliens to Miami for connecting flights, but because of
mechanical downtime or other missions the aircraft are not always
available for Oakdale use.
All aliens detained at Oakdale are criminals and many require
D&D escorts back to their country of origin. At the time of
our visit, there were 26 detention officers rotating escort duty,
usually on an overtime basis. D&D travel clerks reported
shortages of personnel to perform escort duties. Additionally,
they said government ground transportation used to transport
aliens to Houston, New Orleans, and Miami frequently broke down.
Based on our case review, we noted that Oakdale took the
longest to remove detained aliens. The Oakdale average was43 days
from the date of the final order to the date of removal.
Generally, Oakdale D&D procedures for preparing detained
aliens for removal were impressive. Preliminary paperwork was
prepared before the alien received a final removal order and the
case was ready to go. Yet limited resources caused delays in
removing detained aliens from Oakdale. Longer use of detention
space per alien ultimately increases detention costs and reduces
the space available for detaining additional aliens.
REMOVAL OF NONDETAINED
ALIENS
INS was successful in deporting only about 11 percent
of nondetained aliens after final orders had been issued.
Contributing to this low percentage were delays by district
counsel in transmitting final orders to D&D, delays by
D&D in taking action, failure to send surrender notices
to aliens, failure of aliens to surrender in response to the
notices, and limited efforts made by INS to pursue aliens who
failed to surrender. Special conditions affecting certain
nationalities also impaired INS' ability to remove aliens.
We reviewed 656 case files for aliens who were not detained
when final deportation orders were issued to them. Of the 656,
only 72 aliens (11 percent) left the country; 45 were formally
deported and 27 others left the country of their own accord.
Deportation of nondetained aliens relies largely on aliens
voluntarily surrendering when INS requests them to do so.
Analysis of the 656 cases in our sample showed that D&D only
requested the surrender of the aliens in 372 cases. In many other
cases, D&D did not have the aliens' current addresses, or the
aliens were of nationalities affected by political or
humanitarian concerns. When surrender notices were sent, only 40
aliens surrendered. When aliens failed to surrender, D&D
often did not pursue them. When D&D reported these aliens to
INS Investigations, Investigations generally did not pursue them.
Delays in Receipt of
Final Orders and in D&D Initial Actions
We found D&D received some final orders from the district
counsel long after they were issued. We also found that sometimes
D&D did not take initial action until long after final orders
were received. In our review of the 656 sample cases for
nondetained aliens, we examined each file to determine the
processing times for actions after final orders were issued by
EOIR. We treated as initial action any evidence of review of the
case by D&D. Initial actions could be notes made by reviewing
officers, clerical instruction sheets, typed forms such as
warrants of deportation in the file, or other entries. The
average number of days from issuance of final orders to the first
actions recorded by D&D in the sample case files were as
follows:
Routing of Final
Orders - Final orders are provided to the INS district
counsel by EOIR. D&D cannot initiate actions to remove the
alien until the district counsel's office forwards the final
order to D&D.
We interviewed district or assistant district counsel at seven
of the locations visited. In six districts the counsel said they
received final orders from immigration judges promptly, most of
them on the day of the hearing. One district reported having
problems in getting copies of final orders from immigration
judges.
BIA decisions are mailed directly from Falls Church, Virginia,
to the district counsel controlling the case file. District
counsel said as a rule they received copies of BIA decisions
within a few days after the decisions were rendered.
Trial attorneys assigned to each district counsel's office
maintain control of case files during the EOIR proceedings.
District counsel told us there were no set guidelines for routing
final orders. During our review, we observed procedures
established by the district counsel to route final orders to
D&D after allowing for an appeal period. In general, upon
learning of a decision, the trial attorneys: (1) route the case
file and the decision to D&D to act, if both the alien and
INS waived appeal; (2) hold the file until the time allotted for
appeal expires, if the alien or INS reserved appeal; (3) hold the
file if a final order was issued in absentia, in case the alien
appears and files a motion to reopen proceedings.
In 448 of the 656 nondetained sample cases, we could not tell
how long district counsel kept the final orders before routing
them to D&D. In only 208 of the cases were we able to
determine the times because district counsel forwarded the final
orders to D&D with transmittal memos or other notations.
We found that only 55 of the 208 cases had been forwarded to
D&D in a timely way. We used as criteria for timeliness 15
days for final orders issued by immigration judges (allowing for
appeal and routing) and 10 days for BIA final orders (allowing
for mail). Over 90 days elapsed before 53 of the cases were
routed to D&D, and 24 of those took more than 180 days.
We also found that for 29 of the cases, or 4 percent of our
sample, D&D had not received the final order and the case
file held no record of its issuance.
D&D Initial
Actions - After D&D receives a final order, generally an
officer reviews the case and instructs a clerk to prepare the
required documents. These include a warrant of deportation for
issue by the district director and two forms to mail to a
nondetained alien. The first form states the alien has been
ordered deported to a specified country and warns of penalties
for unauthorized reentry. The second form instructs the alien to
surrender by reporting to the local district office with baggage
on a specified date and time.
District D&D staff cited detained aliens and aliens
released on bond as their priority cases. Other nondetained cases
were worked as time allowed. In New York, which had the longest
times from issuance of final orders until initial action,
deportation officers were frequently detailed from the District
Office to Varick Street to assist with detained aliens.
Failure to Send
Surrender Requests
The surrender request is an integral part of the removal
process, because it establishes a date for the alien to appear
for deportation.
We found that district D&Ds failed to request surrender in
36 percent of our sample cases (237 cases). An additional 7
percent of the cases (47 cases) required no surrender notice for
administrative reasons, such as pending federal court review,
status adjustment based on marriage pending with the district
examinations section, or because the alien had already left the
country.
Some surrender requests were not sent because D&D had not
received the final orders (29 cases), D&D did not have good
addresses for the aliens (106 cases), the aliens were of
nationalities handled under special conditions (73 cases), and
other reasons such as a lack of detention or travel funds. For
example:
· New York did not request surrender in 66 out of the 107
cases reviewed. The majority of the aliens failed to appear
at EOIR hearings and D&D did not have good addresses.
· In Miami, certain nationalities (Cubans, Nicaraguans,
and Haitians) were not processed for removal. This accounted
for 58 out of 110 cases reviewed having no evidence of a
surrender request.
· Washington did not request surrender in 45 of 89 cases
reviewed. A D&D officer commented that frequently
surrender requests were not mailed out because there were no
funds available to detain or deport the aliens if they
surrendered.
Failure of Nondetained
Aliens to Surrender
Few aliens report to the district offices after receiving the
surrender notices. D&D officers throughout the country refer
to the notices as the "run letter." Most aliens who
receive the notices either ignore them or move away with no
forwarding address. Based on our case review, only 40 aliens
surrendered in response to the 372 surrender notices. The
following number of aliens surrendered in response to surrender
notices sent out at each district:
As reflected in the above chart, our sample found that New
York D&D sent out 41 notices to nondetained aliens to
surrender for removal. No one surrendered. Miami D&D sent out
27 notices and 2 aliens surrendered; but one was pending
adjustment of status and the other was a Cuban placed on an order
of supervision. Therefore, neither was removed or detained.
In addition to our sample, New York D&D had compiled data
on the number of surrender notices mailed to nondetained aliens
between October 1993 and August 1994. D&D found that 3,025
surrender notices were mailed and only 74 aliens, or 2 percent,
actually surrendered. Only 48 of the 74 aliens who surrendered
were removed. The remaining 26 aliens were not removed pending
further actions.
The same type of data was compiled by Miami D&D during FY
1993, when Miami scheduled 1,340 aliens for surrender. Only 75,
or 6 percent, actually did so and 68 of the 75 aliens who
surrendered were removed.
Failure to Pursue
Abscondees
Nondetained aliens who do not comply with a surrender request
are rarely pursued actively. Within INS, aliens who fail to
appear for proceedings or for deportation after issuance of final
orders are called "abscondees". District D&D
personnel may be assigned to try to locate abscondees. In a
program referred to as Bag and Baggage, officers in D&D
sections search for aliens who have failed to appear. Since these
aliens have final deportation orders, the D&D officers can
pick up any aliens they locate, detain them briefly, and deport
them. Each district makes a determination on whether to use their
resources to perform the searches.
Seven of the nine district offices we visited had Bag and
Baggage programs. New York and Washington did not, due to lack of
resources. Baltimore D&D squads conducted weekly searches and
reported locating 62 aliens from July 1993 to June 1994. Los
Angeles conducted the searches, but one D&D supervisor noted
that they are time-consuming and often take needed personnel away
from the office for several hours. The Bag and Baggage program
was popular with most officers who participated in it, and
D&D managers agreed that it improved the officers' morale.
Bag and Baggage searches located a relatively small number of
aliens. For example, Los Angeles reported that 22 aliens were
located from January through June 1994. Due to limited staff
resources, the Bag and Baggage programs usually target criminal
aliens who have failed to surrender. The scope of these programs
is additionally limited by resources, focusing on certain
nationalities that require little or no effort to obtain travel
documents and minimal costs to remove. If there is no known last
home or work address for the alien, searches are frequently not
practical, according to the D&D officers. Other than a Bag
and Baggage program, district D&Ds do not actively pursue
aliens with final removal orders.
Some districts used credit bureau and state motor vehicle data
systems to search for nondetained aliens. The District Director
in Miami, along with D&D managers elsewhere, noted that
access to nationwide motor vehicle and credit bureau data bases,
as well as access to Social Security data, would help to locate
aliens.
Failure to Investigate
Abscondees
On both a national and district level, INS Investigations has
given D&D abscondee cases low priority. Headquarters and
district managers said it has been national policy for
Investigations not to work abscondee cases, unless an abscondee
comes to their attention as part of a broader investigation.
D&D cases are given low priority because of the shortage of
investigative resources and because other investigations have a
higher priority.
During our field visits, we noted that:
· In New York, if aliens fail to appear for their
hearings or fail to respond to the surrender notice, D&D
routes the file to district Investigations with a memo
requesting Investigations to locate the alien.
Investigations will add another memo to the file, noting
receipt but stating the case will not be accepted. New York
D&D managers told us that while abscondee cases continued
to be referred routinely, Investigations had not accepted a
D&D case for several years.
· In Baltimore, the D&D staff told us they do not
refer cases to Investigations because it is time-consuming
and pointless. An Investigations manager confirmed that under
current priorities Investigations did not work D&D
abscondee cases.
Closing Abscondee
Cases
If aliens were not located, district D&Ds closed the
abscondee cases, using a schedule adapted from a Headquarters
policy memo issued in August 1982. Specifically, the memo
instructed field offices converting from the manual docket
control system to the automated Deportable Alien Control System
(DACS) not to enter certain inactive cases into DACS. These
included cases where INS had no contact for a year or more with
aliens who failed to appear for proceedings; aliens with criminal
backgrounds who failed to surrender for deportation within 5 or
more years of the last contact; and noncriminal aliens who failed
to surrender for deportation after 3 or more years of no contact.
District D&Ds used these time frames as criteria for closing
inactive cases in DACS in an effort to weed out cases likely to
prove unproductive.
After closing cases in DACS, district D&Ds no longer
maintain the record or track the case. Unless one of these aliens
somehow comes to INS's attention, it is unlikely the final
removal order will ever be executed.
Special Conditions Affecting
Certain Nationalities
Removal of aliens to certain countries may be delayed or
prevented altogether by special conditions relating to those
countries.
The Act outlines conditions under which the Attorney General
(AG) may, on humanitarian grounds, designate for temporary
protection nationals of countries undergoing an extraordinary
temporary event. Such events include ongoing armed conflict or a
natural disaster threatening the aliens' personal safety if they
were required to return to their countries. Temporary protected
status (TPS) may be granted to eligible aliens for a specified
period and aliens under TPS cannot be removed.
Other national groups not designated for TPS have been given
special handling from time to time out of humanitarian concerns.
For these groups, including most notably Nicaraguans and PRC
nationals in recent years, a special review required after the
issuance of final orders may interrupt the deportation process.
Officials in a number of the districts we visited stressed the
influence of the political climate on internal policies and the
effects on D&D's work. For example, under a longstanding
Department of Justice policy, D&D was required to submit
files for Nicaraguans with final orders for further review before
deporting them. This procedure was started in January 1987 and
continued, with modifications, until December 1993. The review
was conducted by the Office of the Deputy AG (DAG) and initially
required the complete INS file to be forwarded. The Office of the
DAG review resulted in a recommendation to the AG who reviewed
each case before notifying INS to deport or not deport the
person.
D&D field officials described the review process as
extremely slow, and in many cases they received no response. In
Baltimore, D&D officers said their experience of the
Nicaraguan review procedure was that it took 2- to 3-years after
files were forwarded through INS Headquarters to the DAG/AG to
decide whether an alien could be deported.
District managers and D&D officials in several districts
discussed the special conditions and review procedures from their
perspective of being responsible for field operations. The
special procedures often created large populations of aliens,
many of whom remained in the country for years outside normal
immigration controls.
The procedures tended to continue as field practice, through
inertia and the lack of a coherent policy, potentially long after
the conditions giving rise to them changed significantly.
Another example of special procedures involves PRC nationals.
District counsel told us they began implementing procedures in
August 1994 for processing PRC nationals who present claims for
relief from deportation based on enforced family planning
practices. District counsel noted that the proceedings frequently
use up considerable staff resources and time.
In some districts, the special conditions account for many of
the aliens D&D has not attempted to remove. For example, in
Miami the Nicaraguan population (over 19,000) contributes to the
disproportionate number of cases pending execution of final
orders. Miami also has large Cuban and Haitian populations, two
major national groups INS has been unable to deport. In our Miami
sample, of 107 aliens with final orders pending execution, 70
percent belonged to these three national groups: 31 aliens were
Nicaraguan, 25 were Haitian, and 19 were Cuban. The Miami docket
also included Guatemalans and El Salvadorans who qualified for
TPS.
CONCLUSIONS
Based on the overall data, INS only removes about half the
aliens who have been issued final deportation orders. EOIR issued
99,799 removal orders in FY 1994 and INS deported 47,434 aliens;
45,000 of the removal orders were for detained aliens and 54,799
were for nondetained aliens. Based on the results of our sample
of 1,058 cases, it is clear that most of the aliens actually
deported were detained, and few of the nondetained aliens were
deported. Detention is key to effective deportation.
Efficient use of detention resources affects the number of
aliens INS can deport. The sooner INS turns cases over, the
sooner the detention space can be re-used. Each additional day of
detention after the issuance of a final removal order prevents
turnover of the limited bedspace to allow detention of additional
aliens. Our review showed that, on the whole, INS was doing a
good job of removing detained aliens.
At all points in the process of enforcing immigration laws,
INS managers necessarily exercise their discretion -- in
determining which aliens to bring into proceedings, which aliens
to detain, and which aliens to pursue if they abscond. These
determinations are based on a number of considerations, including
INS priorities and available resources. Once an alien is
detained, the case is given priority in EOIR proceedings and
D&D tracks the case and tries to move it along. Nondetained
cases also are treated according to priorities. Limited D&D
resources are used to search for a few aliens, most of them
criminals, who have absconded after receiving final orders. If
INS has no address and is unable to locate abscondees, after a
period of time the cases are closed.
Limits imposed by personnel, funding, detention space, and
related resources affected how soon, and how many, aliens were
removed. District managers and D&D officers in several
locations expressed frustration over their inability to remove
aliens with final orders. They attributed this inability in part
to the workload and the resources for handling it and to
humanitarian and political conditions and pressures interfering
with carrying out immigration laws. District officials noted that
in making choices about whom to detain, they tended to detain the
aliens who can be removed most easily.
Too many factors affect the removal of aliens to identify an
exact correlation between delays in taking actions and the
deportation rate. However, it seems logical that the sooner INS
tries to locate the aliens, the better the chance is that INS
will be able to deport them.
Although resources impose real constraints, INS could improve
the effectiveness of deportations by detaining more aliens who
are undergoing proceedings.
INS could also improve the effectiveness of deportations by
changing its current removal procedures for nondetained aliens.
Of the final orders for nondetained aliens, while 25,976 were
issued in absentia, in 28,803 cases final deportation orders were
issued to aliens who were present at the hearings. INS should
consider taking aliens into custody at the hearings when the
final orders are issued at the hearings. INS should also consider
personal delivery of surrender notices to aliens and taking them
into custody at that time, rather than mailing the surrender
notices to the aliens.
RECOMMENDATIONS
Since detention is key to deportation, INS needs to increase
detention or develop a better strategy for nondetained aliens. In
the interim, we recommend that INS take more aggressive actions
to remove nondetained aliens, such as:
-- moving more quickly to present surrender notices to
aliens after receiving final orders;
-- delivering surrender notices instead of mailing them to
aliens;
-- taking aliens into custody at hearings when final
orders are issued at hearings;
-- pursuing aliens who fail to appear and reviewing
procedures for closing cases for aliens who fail to appear;
-- coordinating with other governmental agencies to make
use of all data bases available for tracking aliens who fail
to appear.
APPENDIX I
ABBREVIATIONS
Act - Immigration and Nationality Act
AG - Attorney General
BIA - Board of Immigration Appeals
DACS - Deportable Alien Control System
DAG - Deputy Attorney General
D&D - Detention and Deportation
EOIR - Executive Office for Immigration Review
FY - Fiscal Year
INS - Immigration and Naturalization Service
PRC - People's Republic of China
TPS - Temporary Protected Status
#####